CERTIFICATE OF SERVICE
Per 28 U.S.G. § 1746,1 certify under penalty of perjury that a true and correct copy of the
foregoing was placed in the prison mailing system - in accordance with the applicable legal mail
rules and with first-class postage pre-paid - to the Office of the Attorney General, 1 SE 3rd Ave.,
Ste. 900 Miami, FL 33131and that the original was placed in the hands of prison officials for
mailing to the Clerk of Court, U.S. Supreme Court, 1 First St. NE, Washington, DC 20543, on
this

day of

Hcu-cU

2021.

legal mail provided to

COLUMBIAXORRJECTIONAL INSTITUTION
ON. T-5 -c3LV-(DATE)F0B mailing

~ Stall Initial _J^L VM Initial
-#4-

Michael Hernandez
Columbia C.I.
216 S.E. Corrections Way
Lake City, FL 32025

<»■

>’

CERTIFICATE OF SERVICE
Per 28 U.S.C. §1746,1 certify under penalty of peijury that a true and correct copy of the
foregoing was placed in the prison mailing system - in accordance with the applicable legal mail
rules and with first-class postage pre-paid - to the Office of the Attorney General, 1 S.E. 3rd Ave.,
Ste. 900, Miami, FI. 33131 and that the original was placed in the hands of prison officials for
mailing to the Clerk of Court, U.S. Supreme Court, 1 First St. NE, Washington, DC 20543 , on
this

day of

,2021.

Michael Hernandez
Columbia C.I.
216 S.E. Corrections Way
Lake City, FL 32025
LEGAL MAIL PROVIDED TO
C0LUMBL 0RR.ECTI0NAL INSTITUTION
MAILING
ON
M Initial
-__ Stall Initial

•a

